No. _ _ __
Howard B. Bloomgarden,
Petitioner,

vs.
National Archives and Records Administration,
Respondent.
CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS

I, Anthony G. Lantagne, hereby certify that the above referenced Petition for Writ of
Certiorari, as indicated by the word count feature of MS Word and including footnotes
but excluding those parts enumerated for exclusion under the rules, contains 3,154
words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 6th day of August, 2020.

y . I..:a
Lant
e Lega nnting, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-0477

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)

)

to-wit:

Anthony G. Lantagne appeared before me this 6th day of August, 2020, and attested that
the foregoing certificate is true and exact to the st of ·
o le
and belief.

